                                                  National Railroad Passenger Corporation
                                                  Office of Inspector General
                                                  10 G Street N.E.
	                                                Washington, DC 20002




  AMTRAK CORPORATE LODGING PRACTICES: IMPROVED BUSINESS PROCESS
               WOULD LEAD TO SUBSTANTIAL SAVINGS
                                 OCTOBER 29, 2013
                                 CASE # CA-12-0237

Our investigation revealed that opportunities existed to improve Amtrak’s lodging
program cost effectiveness. During the last three fiscal years, Amtrak spent
approximately $69 million to provide overnight lodging for about 6400 employees.
Amtrak outsources its lodging services to a lodging management firm, in an effort to
gain leverage in negotiating hotel room rates and to manage Amtrak’s lodging program.
Our investigation found that some Amtrak managers who were responsible for
arranging lodging for employees did not always follow the lodging management firm’s
recommendations on how to use industry best practices to realize significant savings.
We reported the results of our investigation to Amtrak management who agreed to
adopt the industry best practices recommended in the report. Amtrak management
estimated that by doing so, the company could realize a cost avoidance of $1.1 million.
